     CORPORATION

     FOR NATIONAL




OFFICE OF THE INSPECTOR GENERAL




    Semiannual Report to the Congress

    October 1, 1995 - March 3 1, 1996
April 26, 1996                                                                            CORPORATION

                                                                                           FOR N A T I O N A L
Harris Wofford
Chief Executive Officer
Corporation for National
 and Community Service
1201 New York Avenue, NW
Washington, DC 20525

Dear Senator Wofford,

I am pleased to submit the Office of the Inspector General Semiannual Report for the six-month
period ending March 31, 1996. In this reporting period both investigative and audit activity
increased. For investigations, however, comparisons with activity reported in prior periods would
inflate the increase because we changed our methods for tracking cases as part of our quality
improvement efforts.

On the audit side, we issued 14 reports, seven of which report more than $1 million of Federal
and Non-Federal questioned costs (of which more than $700 thousand represents Federal funds).
This is an exponential increase compared to the first half of 1995.

Moreover, during this period, OIG and CNS management were twice asked to testify on issues
resulting from OIG audits and investigations, most recently on March 19, 1996. On that date we
testified on the results of our attempt to audit CNS' fiscal year 1994 financial statements as
required by the Government Corporation Control Act. On October 17, 1995 we testified on
issues related to ACORN Housing Corporation. That audit and resulting investigation (reported
in the prior Semi-Annual Report) resulted in termination of the Corporation's grant to AHC as
of September 1, 1995.

We are committed to establishing performance measures and other assessments to improve the
timeliness, quality and usefulness of OIG products. In this report we have included information
on the timeliness of OIG audit reports; specifically, the elapsed time between the start of the job
and issuance of the final report. This measure will be used comparatively in future reporting
periods. Along with audit staff performance measures that we now maintain for each auditor and
for the audit staff as a group, we will assess how we can better schedule and budget our work and
to decide whether or not to contract out certain projects.

                                                                                          1201 New York Avenue. NW
                                                                                          Washington. DC 20525
                                                                                          Telephone 202-606-5000




                                                                                          Getting Things Done.
                                                                                          AmmCorps. National Service
                                                                                          Levn and Serve America
                                                                                          Nal~onalSenlor Serv~ceCorps
Letter to Senator Wofford
Page 2



As you are aware, the Inspector General Act of 1978, as amended, requires that you submit this
report, along with any comments you may wish to make, as well as statistical tables and reports
required by the law, to the Congress within 30 days. In addition, the Act requires that you submit
this report, with your comments and the required information, to CNS' Board of Directors no
later than the date on which you submit the report to the Congress.

Yours truly,



Inspector General
OFFICE OF THE INSPECTOR GENERAL




    Semiannual Report to the Congress

    October 1, 1995 - March 3 1, 1996
                                          TABLE OF CONTENTS


Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Auditing Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

              Reports Issued During the Period October 1. 1995 .
              March31. 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

               Statistical Summary of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

Review of Legislation and Regulations                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
TABLE I               .. Inspector General Reports With
                              Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

TABLE I1              ..      Inspector General Reports With
                              Recommendations That Funds Be Put
                              ToBetterUse . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

TABLE 111 .. Summary of Audits With Overdue
             Management Decisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

TABLE IV              .. Significant Reports Described in Prior Semiannual
                         Reports Without Final Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

Index To Reporting Requirements of the Inspector General Act . . . . . . . . . . . . . . . . . 22
                                    INTRODUCTION

The Corporation for National and Community Service (CNS) was created under the National and
Community Service Trust Act of 1993. Through several programs, CNS offers Americans of all
ages and backgrounds the opportunity to participate in community-based service programs.
These programs include AmeriCorps State and National Direct grants, VISTA, the National
Civilian Community Corps, Learn and Serve America, and the Senior Volunteer Program.


             AUDITS AND REVIEWS OF CNS OPERATIONS

Financial Audit of CNS' Fiscal Year (FY) 94 Financial Statements (OIG 96-36) and
Auditability Study of CNS' Accounting Systems (OIG 96-38)

Under the Government Corporation Control Act,' the OIG is responsible for the audit of CNS'
financial statements. To meet our responsibilities under the Act we contracted with Williams,
Adley & Company, LLP and Arthur Andersen, LLP (the firms) to audit the Corporation's FY
19942 financial statements. However, the firms informed the OIG and CNS that due to
weaknesses in CNS' financial systems, accounting records and management controls, the
financial statements were unauditable. OIG's reports, summarized below, describes the
conditions that made it impossible to audit the financial statements. OIG recommended that the
firms perform a comprehensive auditability study to further assess CNS financial systems and
management controls and to determine what actions the Corporation must take to produce
auditable financial statements in future years. CNS accepted the recommendation.

      Material Weaknesses in Accounting Systems

We found that CNS' general ledger system is outmoded and poorly designed. Moreover, the
firms identified information security weaknesses that increase the risk that information in the
general ledger system could be inappropriately accessed and modified.

In addition, CNS uses three subsidiary systems to manage and account for CNS grants. In the
manual process of consolidating grant financial information from the systems, CNS noted that
no system maintains complete grant information. However, during FY 1994, CNS did not
routinely reconcile the general ledger grant information with the information in the subsidiary
grant systems. Although CNS reconciled the information as of September 30,1994, and adjusted
the grant-related liabilities, advances, and expense balances in the financial statements, detailed

' 3 1 U.S.C. 9101 et seq.
 CNS' initial year of operations.
accounting information supporting the adjustments was not readily available. Therefore, the
accuracy of the adjustments could not be substantiated.

     Accounting Records Not Properly Maintained

Further, CNS predecessor agencies (ACTION and the Commission for Community Service) had
not previously been required to produce audited financial reports. Therefore, subsidiary and
detailed records substantiating October 1, 1993 opening balances and related supporting
information were not appropriately retained to facilitate an audit. These conditions rendered an
attempt to audit the financial statements ineffective and impractical.

     Material Weaknesses in Management Controls

In addition to the deficiencies in the Corporation's accounting and financial reporting and its
financial information systems the firms identified numerous weaknesses in CNS financial
management practices, such as:

     In FY 1994 CNS did not reconcile its Funds with the U. S. Treasury (Cash) accounts, and
     previously ACTION had never performed these reconciliations. Although CNS began to
     reconcile its Treasury accounts, reconciliations to support amounts reported for FY 1994
     were unavailable. By not reconciling cash balances on a timely basis, errors or irregularities
     may occur and not be detected.

     CNS procedures for processing cash receipts during FY 1994 were inadequate to ensure that
     assets were safeguarded. At headquarters, the employee who received cash also made the
     deposits and recorded the related general ledger entries. This represents an inadequate
     segregation of duties, and creates the risk of errors or irregularities in the cash accounts.

     CNS budgetary controls did not ensure that all obligations were promptly recorded in the
     accounting system. Because of the inadequacies in the budgetary accounting system, CNS
     budget officials maintain cuff records to monitor their budgets and status of funds. Reviews
     of those records by OIG and the firms revealed that cuff records were not always up-to-date
     or reconciled to the accounting records, and that not all purchases had prior budget
     authorization.

     Management had not implemented a framework of policies and procedures designed to
     ensure that financial management is adequate. In its initial year of operations, CNS adopted
     ACTION'S policies and procedures. However, OIG and the firms found that critical
     accounting controls, such as procedures to ensure that all transactions are entered to the
     accounting system and that accounts are properly reconciled, had not been established, and
     that existing management controls were sometimes circumvented or otherwise ineffective.
     Further, CNS had not assessed and reported on its management control structure as required
     by the Government Corporation Control Act, as amended.3 Although CNS had performed
     some assessments, it had not performed a comprehensive review of its management control
     systems. An effective review would have detected and corrected weaknesses such as those
     described above.

On March 29, 1996, the OIG issued the results of the Williams AdleyIArthur Andersen
auditability study. The study makes 99 recomendations to address the aforementioned material
weaknesses and other reportable conditions found during their survey. CNS has acknowledged
the weaknesses in its financial and management control systems and initiated corrective actions.

Pre-audit Survey of CNS' Grants Management Process (OIG 96-31)

To facilitate the audit of the Corporation's financial statements OIG performed a pre-audit survey
of CNS' grants management process. Based on the results of the survey we were unable to
conclude that CNS had established a control structure to provide reasonable assurance that grant
obligations and expenditures were properly recorded because of the absence of timely and
periodic reconciliations between the Health and Human Services Payment Management system,
CNS' general ledger, and its grant management database for AmeriCorps and Learn and Serve
program grants. The absence of periodic and timely reconciliations is a material weakness that
limits CNS' ability to prevent and detect misstatement of accounting information and impedes
CNS' ability to prepare useful and reliable financial reports. The survey revealed other conditions
that impact the reliability of CNS financial information including:

      CNS utilized three systems to record grant activity for AmeriCorps and Learn and Serve
      grant programs. The use of the three systems not only increases the risk of errors, but is also
      inefficient when financial reports are prepared.

      Management had not performed necessary procedures to adjust the accounts for Financial
      Status Reports (FSRs) received and entered after fiscal year end. The FSRs provide grant
      data on the performance of grantees and thus, should be used to determine grant expense for
      financial reporting purposes.

Pre-audit Survey of CNS' Procurement Process (OIG 96-32)

Our pre-audit survey of the Corporation's procurement process revealed that controls had been
established to require that obligations are appropriately authorized, in compliance with applicable
laws and regulations, recorded in a timely manner, and materially accurate. Similar controls had



'3 1 U.S.C. 9106 (a) (1) (E) states that a government corporation is to include in its annual management report to
Congress a statement on accounting and administrative controls consistent with the requirements of the Federal
Managers' Financial Integrity Act.
been established for the related expenditures. However, we found several conditions that indicate
that the controls were not working as intended including:

     Instances where procurement and budgeting procedures may be circumvented. While we
     recognize that every organization occasionally has "emergency" needs which must be
     satisfied immediately, we recommended that CNS forecast its needs so that it can adequately
     plan for the procurement of goods and services and minimize the number of purchases made
     outside the normal procedures.

     High frequency of late payments to vendors. As of February 28, 1995, close to one-third
     of all invoices paid in FY 1995 were paid after the prompt payment due date. Furthermore,
     we identified errors in the calculation of prompt pay penalty interest which indicate that
     procedures may not be effective enough to ensure the accuracy of the penalty interest paid.

     Staff not following Corporation procedures. Throughout the procurement process, we
     identified Corporation requirements that were ignored. In light of the administration's
     current emphasis on streamlining the procurement process, management should reevaluate
     the necessity of these requirements and then maintain and enforce those requirements which
     have the most impact.

     The Corporation failed to file a report required by the Prompt Payment Act for FY 94.
     Although we do not consider this to be a material non-compliance with applicable laws and
     regulations, we believe that CNS should comply with the requirements of all applicable
     statutes. Furthermore, we understand the Chief Financial Officer's office was unaware the
     report had not been filed until our survey inquiries brought the issue to management's
     attention.

Review of 1994 ArneriCorps National Direct Grant Award Process (OIG 96-10)

In response to a request from Senators Christopher S. Bond and Charles E. Grassley, we
performed a review of the 1994 ArneriCorps National Direct Grant Award process. The purpose
of our review was to assess whether the Corporation exceeded its discretion in awarding grants
to organizations that received relatively low scores during a peer review process, thereby skipping
over many organizations who scored higher.

We found that the Corporation acted within its discretion when it awarded grants to lower-ranked
applications at the expense of higher-ranked applications. Overall, we found that the Corporation
decided to award grants to lower-rated applicants consistent with its methodology and the
statutory and regulatory selection criteria governing competitive grant awards. While we found
one award to a low-ranked grantee that it treated as a higher-ranked application, the Corporation
had a reasonable basis to conclude that the peer review score that resulted in the application's
poor ranking was inappropriately low. Thus, the Corporation acted within its discretion in
treating that application as a higher scoring proposal.
However, we also found several areas where the Corporation could improve its future
ArneriCorps National Direct grant competitions. In particular, we found that the peer review
process for the 1994 AmeriCorps National Direct grant competition gave the Corporation little
assurance that it could rely on the scores assigned by peer review panels to compare grant
proposals against one another. The variances in scores assigned to particular grantees could be
attributed to differences in scoring practices of each panel, rather than the relative merits of
individual applications. Thus, the scores from different peer review panels were not an effective
basis of comparison between grant applications.

Based on what we learned during our review, we made a number of recommendations on how
the Corporation could improve its future AmeriCorps National Direct grant competitions. Our
recommendations included:

     Adopting a comprehensive set of written procedures for the Corporation's grant award
     process.

     Implementing a specific set of quality controls over Corporation grant competitions
     (including preparing specific written justifications for its grant award decisions and adopting
     regularly scheduled external quality control reviews of its grant award process).

     Redesigning the AmeriCorps National Direct grant application peer review process to
     provide greater assurance that the Corporation can rely upon the results of its peer reviews
     as an indicator of the relative worthiness of grant proposals.

In its response to our report, the Corporation stated that it was in general agreement with our
conclusions and indicated that it will take actions to improve its grant award processes consistent
with our recommendations.
     AUDITS AND REVIEWS OF AMERICORPS GRANTEES

We issued nine reports on grantees during this period, including two reports on close-out audits
of ACORN Housing Corporation and Public Allies, Inc. The other seven reports were on
reviews of recently awarded CNS grants.

As illustrated below, the audits and reviews have revealed issues in several areas. We have
recommended corrective actions and brought the issues to the Corporation's attention for
resolution. A brief discussion on the results of our work at each grantee follows.

                                                                               Issues Related to

                                                          Grant           Mgmt.       Federal
                     Grantee                             Amount          Controls    Reporting      Other'

Audits

ACORN Housing Corporation
Public Allies
ReviewsZ

Arizona-Mexico Commission/
Border Volunteer Corps
Council of Great City Schools
Local Initiatives, Inc.
National AIDS Fund
New Orleans Youth Action Corps
Woodrow Wilson National Fellowship
Foundation
Youth Build USA, Inc.


 '
 Other includes such issues as inadequate support for non-Federal match, non-approved indirect cost rate, and
unallowed activities such as fund raising, charged to the grant.

  A review concentrates on specific areas of risk or grantee activities. Therefore, its procedures are less
comprehensive than an audit and would not necessarily disclose all issues or reportable conditions.
ACORN Housing Corporation (OIG 96-21)

Leonard G. Birnbaum and Company, under contract to the OIG, performed a close-out audit of
grant number 94ADNIL001 to ACORN Housing Corporation (AHC). ACORN Housing
Corporation had been the subject of an earlier OIG audit and investigation. Evidence obtained
in the OIG investigation indicated that AHC violated the National and Community Service Act,
as amended, CNS regulations, and policies as well as the grant agreement. CNS and AHC agreed
to terminate the grant as of September 1, 1995.

The auditors' report questioned costs totaling $87,556 because AHC claimed labor and
administrative costs in excess of the CNS approved budget and claimed rental costs for which
there was no adequate documentation. In addition, the audit disclosed instances of non-
compliance and other reportable conditions including:

     AHC did not comply with the procurement requirements articulated in Office of
     Management and Budget Circular A- 110, Uniform Administrative Requirements for Grants
     and Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit
     Organizations.

     AHC lacked adequate controls over labor reporting; personnel files for ArneriCorps
     members; cash disbursements; and rental costs.

     AHC had not complied with the requirements of Circular A- 110 which relate to program
     income.

Public Allies (OIG 96-20)

Leonard G. Birnbaum and Company, under contract to the OIG, audited costs claimed by Public
Allies related to CNS grant number 94ADNDC038. The audit questioned costs totaling $105,383
because Public Allies lacked supporting documentation or the supporting documentation
indicated that the expenses were other than expenditures from grant funds; credits were
erroneously recorded against the grant; and Public Allies failed to demonstrate that it incurred the
required matching costs. In addition, the audit disclosed instances of non-compliance and
other reportable conditions including:

     Public Allies did not maintain adequate cost-sharing records.

     Public Allies did not maintain an adequate financial management system and lacked
     segregation of duties and controls in the cash disbursement cycle.

     Public Allies did not obtain written permission from CNS to permit participants to spend
     more than 20 percent of a participant's required service hours in education and training
     activities.
Arizona Mexico Commission/Border Volunteer Corps (OIG 96-04)

OIG performed a limited review of costs related to Commission on National and Community
Service grant number 93LOAZ0001 to the Arizona Mexico Commission/Border Volunteer Corps
(BVC). We selected this grant for review because it was a large dollar grant. In addition, prior
to the start of our work we received allegations of mismanagement at BVC. As a result of the
review, we found that:

     BVC did not adequately manage grant funds.

     Certain staff salaries were excessive.

     BVC staff did not allocate time between allowable and unallowable activities.

     BVC used grant funds to pay costs that were unallowable under Federal regulations
     including the commuting expenses of two BVC staff. As a result, we questioned $l48,4 15
     in salaries paid to BVC staff and $41,658 in improper andlor unsupported costs.

We also found that in two instances, BVC carried out lobbying activities that were prohibited by
Federal and CNS regulations.

Further, an individual who had been a consultant with BVC from its inception, was hired as its
Assistant Director in March 1995, and subsequently fired thirty-six days later, alleged that BVC's
monitoring of AmeriCorps Members was inadequate, CNS inappropriately interfered with the
firing of a BVC staff member, and CNS covered up BVC deficiencies after a site visit. While we
did find that at least one AmeriCorps Member inappropriately performed service hours in
Mexico, we also noted that the Mexico service project was terminated and was otherwise
appropriately resolved by the Corporation prior to the allegations. We found no other evidence
that AmeriCorps Members were not performing service as required, however, we did find
weaknesses in BVC's system to record and track service hours performed by AmeriCorps
Members.

We concluded that CNS did not inappropriately interfere with the firing of BVC's Program
Manager or cover up deficiencies at BVC as alleged. In response to the complaints, CNS
appropriately informed BVC's parent organization, AMC, about the Corporation's concerns and
performed a follow up visit to BVC. The Corporation's follow up actions also included issuing
a letter to AMC outlining grant renewal concerns related to the BVC's program design and
management and requested a written response to these issues. Subsequently, AMC notified CNS
that it was withdrawing its legal applicant status as of August 3 1, 1995, stating that the program
no longer met its mission. Citing a "lack of a satisfactory parent organization, significant
management problems and numerous other issues," CNS formally notified AMC that BVC would
not be renewed.
Council of Great City Schools (OIG 96-14)

Tichenor and Associates, under contract to the OIG, performed a limited review of the Council
of Great City Schools' (CGCS) financial reporting and accounting systems to assess their ability
to comply with Federal fiscal accounting and reporting requirements applicable to its AmeriCorps .
grant. Based on that review, we found that CGCS's accounting systems and system of internal
controls were not adequate to report grant expenditures in accordance with grant requirements
and to safeguard Federal funds. The following conditions were reported:

     CGCS's oversight of subgrantees/subrecepientsneeds improvement.

     CGCS lacks written accounting policies and procedures.

     CGCS does not adequately track labor hours.

Local Initiatives Support Corporation (OIG 96-28)

Haag and Company, under contract to the OIG, reviewed the Local Initiatives Support
Corporation's (LISC) financial reporting and accounting systems and management controls.
Haag and Company found that LISC's financial reporting and accounting systems and
management controls were inadequate to ensure compliance with applicable Federal fiscal
accounting and reporting requirements and to safeguard related funds. Based on the results of
the review we questioned costs totaling $75,693. Specific findings included:

     Salary costs for LISC's New York staff employees charged directly to the AmeriCorps grant
     were not properly documented. The grantee's time recordation system did not identify each
     employee's daily activity by project or function. Estimated salary and fringe benefits
     charged to the grant through March 3 1,1995 were $46,526.

     Administrative salaries for the LISC Vice President of Human Resources and the Vice
     President of Field Strategy were being charged directly to the grant rather than being
     included as part of the grant's administrative costs. Both vice presidents are part of LISC's
     central management and support functions that are not assigned to projects on an hourly or
     use basis. Without specific evidence to the contrary, we believe that their functions meet
     the definition for administrative expenses and as such, should be part of the grant's
     administrative costs. Reclassification of these costs, approximately $12,500 through March
     31, 1995, would raise LISC's administrative expense charges to nearly 14 percent of total
     Federal costs incurred through March 31, 1995, and thus exceed the five percent
     administrative expense limitation in the National and Community Service Act, and CNS
     regulations. Further, the charges were based on budget estimates rather than actual costs.

     Administrative expenses charged to the AmeriCorps grant were based on budget estimates
     rather than actual costs. Total administrative costs charged through March 3 1, 1995--for
     rent, telephone, FAX, reproduction, and postage--amount to $29,167. The charges were
     prorated monthly billings of $4,167 derived fiom budget estimates, have no relationship to
     costs recorded in LISC's general ledger, and fail to meet the requirements of OMB Circular
     A-122. Because LISC's administrative charges appear to have been based on budget
     estimates rather than actual costs incurred, we questioned administrative costs reported on
     LISC's FSRs. We recommended that CNS determine the proper amount of administrative
     expenses that LISC is entitled to at the end of the grant period.

     Hours recorded and charged to the grant by AmeriCorps members were not properly
     controlled. LISC failed to implement controls to assure that reported member hours were
     accurate.

     Costs reported by LISC in its quarterly Financial Status Report (FSR) to the Corporation
     were not developed fiom its general ledger accounting records. Rather, costs were obtained
     fiom the project manager's manually prepared worksheets. Although reported differences
     were not significant at the time of review, we recommended that all future FSRs prepared
     by the grantee should be based on actual expenses that are supported by LISC's accounting
     records, in accordance with Federal accounting and reporting requirements.


National AIDS Fund (OIG 96-05)

We performed a limited review of the National AIDS Fund's (NAF) financial reporting and
accounting system to assess the organization's ability to comply with Federal fiscal accounting
and reporting requirements applicable to its CNS grant, as well as its ability to safeguard Federal
funds. Our review revealed that NAF's accounting system and management controls and
procedures appear adequate to safeguard Federal funds and to report grant expenditures in
accordance with Federal requirements, with certain exceptions. First, NAF did not have adequate
documentation to support third-party in kind contributions. Second, NAF's accounting
procedures and policies were not formally documented in a written manual. Based upon the first
exception, we questioned costs of $91,458 used to meet NAF's matching requirement.


New Orleans Youth Action Corps (OIG 96-01)

We performed a limited review of the New Orleans Youth Action Corps' (NOYAC) financial
reporting and accounting system to assess the organization's ability to comply with Federal fiscal
accounting and reporting requirements applicable to its CNS grant, as well as its ability to
safeguard Federal funds. We found that NOYAC's financial reporting and accounting systems
and management controls were inadequate to ensure compliance with applicable Federal fiscal
accounting and reporting requirements and to safeguard related funds. The conditions leading
to this conclusion included inadequate:
    documentation of staff time charged to the grant;

    controls over receipts and disbursements; and

    supporting documentation for expenses charged to the grant.

In addition, we found that NOYAC needs to improve its cash management practices. As a result
of these conditions, we questioned $36,419 in salaries paid to NOYAC staff and $9,065 in
unsupported or unallowable charges to the grant.

Woodrow Wilson National Fellowship Foundation (OIG 96-02)

We performed a limited review of the Woodrow Wilson National Fellowship Foundation's
(WWNFF) financial reporting and accounting system to assess the organization's ability to
comply with Federal fiscal accounting and reporting requirements applicable to its CNS grant,
as well as its ability to safeguard Federal funds. We found that WWNFF's accounting system
did not report expenditures in accordance with Federal and grant requirements. The findings
included:

     WWNFF staff assigned to the CNS grant did not maintain time and attendance records.
     Consequently, we questioned related salary costs charged to the grant in the amount of
     $228,700.

     Adequate documentation was not maintained to support in-kind contributions for liaison
     services provided by the Philadelphia School District. Absent sufficient documentation,
     we questioned related non-Federal costs in the amount of $41,400. In addition, WWNFF
     overstated non-Federal expenses in its Financial Status Report.

     Indirect expenses charged to the grant were based on a rate that was developed over ten
     years ago. A current rate must be developed and approved prior to inclusion as part of the
     grant's non-Federal expenses. Accordingly, we questioned $218,198 of indirect costs
     charged to the grant through June 30,1995.

In addition, we noted that based on non-Federal expenditures reported to date, and discussions
with the grantee, it is likely that WWNFF will not meet their budgeted non-Federal match.

YouthBuild USA, Inc.

We performed a limited review of the YouthBuild USA, Inc. financial reporting and accounting
systems to assess their ability to comply with Federal fiscal accounting and reporting
requirements applicable to its AmeriCorps grant and to safeguard related funds. Our review
resulted in no findings or recommendations.
                 REPORTS ISSUED DURING THE PERIOD
                                            --
                   OCTOBER 1,1995 MARCH 31,1996
                                                                      Federal          Federal
Report   Start    Report                                              Dollars          Dollars
Number   Date      Date                 Report Name                  Questioned      Unsupported
                                                                         (Dollars in thousands)

                           Review of the New Orleans Youth               $ 46               $      9
                           Action Corps, New Orleans, LA

                           Review of Woodrow Wilson National               229                  229
                           Fellowship Foundation, Princeton, NJ

                           Review of Youth Build USA, Inc.,                   0                   0
                           Boston, MA

                           Review of the Arizona-Mexico                    189                    97
                           CommissionIBorder Volunteer Corps,
                           Tucson, AZ

                           Review of the National AIDS Fund,
                           Washington, D.C.

                           Review of 1994 AmeriCorps National
                           Direct Grant Award Process,
                           Washington, D.C.

                           Review of the Council of Great City
                           Schools, Washington, D.C.

                           Close-out Audit of Public Allies,
                           Washington, D.C.

                           Close out Audit of ACORN Housing
                           Corporation, New Orleans, LA

                           Review of the Local Initiatives Support
                           Corporation, New York, NY

                           Pre-audit Survey of CNS Grants
                           Management Process

                           Pre-audit Survey of CNS Procurement
                           Process

                           Audit of CNS' FY 1994 Financial
                           Statements

                           Auditability Study of CNS

                                  TOTAL
                                  INVESTIGATIONS

We began this reporting period with sixteen previously-opened investigative actions. During the
reporting period we opened seventeen new investigative actions and closed eleven. We had
twenty-two investigative actions pending at the end of this reporting period.

The following highlights our investigative activity during this reporting period:

                              -
Alleged False Statement Management Takes Administrative Action

As previously reported, we completed an investigation into an allegation that an employee at one
of CNS' state ofices falsified his Confidential Financial Disclosure Report form (SF 450) by not
reporting his outside employment. During the previous reporting period the U.S. Attorney's
ofice declined criminal prosecution in favor of administrative action and we referred the incident
to the Corporation for action as they deemed appropriate. During this reporting period we were
advised by management that they issued the employee a letter of reprimand, a copy of which will
remain in the employee's Official Personnel Folder for a period of up to one year.

False Time Sheets - Guilty Plea Results in Restitution

A former AmeriCorps Member facing charges of grand larceny stemming from his submission
of false time sheets while serving as an ArneriCorps Member was allowed to plead guilty in State
court to petty larceny. The former AmeriCorps Member was sentenced to serve three years
probation, one year conditional discharge, four work weekends in the county jail, and to pay full
restitution.

Alleged Misconduct - Unsubstantiated

We completed a preliminary inquiry into an allegation that a Corporation supervisor promoted
an employee into a position for which the employee was not qualified. The caller fkther alleged
that the supervisor and the employee were engaged in an intimate relationship. Our inquiry
disclosed no evidence or indication that the supervisor engaged in improper conduct surrounding
the promotion of the employee and we closed the inquiry concluding that the allegation was
unsubstantiated.

                          -
Alleged Embezzlement Unsubstantiated

We completed a preliminary inquiry into an allegation that an employee affiliated with an
ArneriCorps grant recipient was embezzling money from the Corporation grant. We determined
that the complainant made the allegation of embezzlement after seeing documents that indicated
salaries of some grantee employees were paid in part with Corporation hnds. Review of the
agreement between the grantee and the Corporation revealed that varying amounts, from 0-loo%,
of staff salaries and benefits were approved and budgeted to be paid with funds from the
Corporation grant. Our inquiry disclosed no evidence or indication to support the allegation of
embezzlement and we closed the inquiry concluding that the allegation was unsubstantiated.

Alleged Fiscal Misconduct - Unsubstantiated

We completed a preliminary inquiry into an allegation that officials of a grant recipient admitted
fiscal irresponsibility and potentially criminal actions. There was no indication of criminality
and the phrase "...fiscal irresponsibility and potentially criminal actions..." which was contained
in a letter written by the complainant to a third party, was, in the complainant's words, incorrect
and a poor choice of words. We closed the inquiry concluding that the allegation was
unsubstantiated.

VISTA Complaint - Referred to and Resolved by Management

We completed a preliminary inquiry subsequent to receiving a Hotline complaint from a former
VISTA volunteer who alleged she had been improperly terminated from her VISTA assignment.
We determined the complaint involved management issues only and referred the matter to
Corporation management. Management concluded that proper procedures had been followed in
the termination of the VISTA volunteer but did offer her placement assistance and the opportunity
to complete her full year of service.

Proactive Outreach - Crime Prevention - Fraud Awareness

During this reporting period we presented a briefing to approximately 40 AmeriCorps project
directors attending an AmeriCorps Senior Staff Training Workshop held in Albany, NY, by the
State of New York Office of National and Community Service. The presentation focused upon
the existence, goals and activities of the Corporation's OIG, the existence and purpose of the
OIG's Fraud, Waste, and Abuse Hotline, and included a basic fiaud awareness briefing tailored
to the recipients of federal grants.

During this reporting period we also began more aggressive efforts to publicize the OIG and the
OIG Fraud, Waste, and Abuse Hotline within the Corporation. In addition to developing and
printing brochures announcing the existence and addressing the purpose of the OIG, we are
ensuring local "take one" displays remain stocked with our brochures and we have mailed the
brochures to all of the Corporation state offices. We are presently pursuing additional cost-
effective, and in most cases pre-existing, channels through which we can educate our customers
and hopefully become involved in challenging areas before they become problem areas.
                      STATISCAL SUMMARY OF INVESTIGATIONS



Opened and Closed

Number of Cases Open at Beginning of Reporting Period..................................


Number of New Cases Opened During This Reporting Period ...........................

Number of Cases Closed During This Period With
             . .
Significant Findings.............................................................................................


Number of Cases Closed During This Period With
    . .         . .
No Significant Findings........................................................................................

Total Cases Closed This Reporting Period ...........................................................

Number of Cases Open at End of Reporting Period .............................................


Referred


Number of Cases Referred for Prosecution During
This Reporting Period..........................................................................................

Number of Cases Accepted for Prosecution During
This Reporting Period ..........................................................................................


Number of Cases Declined for Prosecution During
This Reporting Period..........................................................................................

Number of Cases Pending Prosecutive Review...................................................
         REVIEW OF LEGISLATION AND REGULATIONS

Section 4(a)(2) of the Inspector General Act directs the Office of the Inspector General to review
and make recommendations about existing or proposed legislation and regulations relating to the
Corporation's programs and operations. The OIG recommendations, which are to be included
in its Semiannual Reports, are to specifically address the impact of the legislation and regulations
on preventing and detecting fraud and abuse, as well as the economy and efficiency in the
administration of CNS' programs and operations.

As discussed in our last Semiannual Report, the National and Community Service Trust Act of
1993 currently authorizes appropriations for some of the Corporation's programs and operations
through fiscal year 1996. There has been no specific legislation proposed to reauthorize
Corporation programs under the Act. OIG has discussed several issues regarding the
Corporation's programs and operations with staff members of the Senate Committee on Labor
and Human Resources, which has legislativejurisdiction over the reauthorization of the Act. OIG
has also participated in some discussions with Corporation officials on matters of economy and
efficiency in the administration of the Corporation's programs and operations that could be
addressed in the reauthorization process.

In response to several requests during this reporting period, OIG reviewed draft legislation
regarding the Corporation's Fiscal Year 1996 appropriations. OIG provided comments on how
the draft legislation could affect the Corporation's process of resolving the findings in the report
on the results of the Auditability Study discussed elsewhere in this Semiannual Report.

Finally, during this reporting period, the OIG reviewed proposed legislation and regulations that
would generally affect the operation of federal agencies by participating in reviews coordinated
by the President's Council on Integrity and Efficiency.
                         TABLE I
     INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS


                                                       Federal Costs
                                        Number   Questioned     Unsupported

                                                    (Dollars in thousands)

     For which no management               13       $24 1              $ 99
     decision has been made by the
     commencement of the reporting
     period
     Which were issued during the
     reporting period
     Subtotals (1 plus 2)


     For which a management
     decision was made during the
     reporting period
     (i)    dollar value of
            disallowed costs

     (ii)   dollar value of costs not
            disallowed
     For which no management
     decision has been made by the
     end of the reporting period
     (3 minus 4)




6.   Reports for which no                  7          57
     management decision was
     made within six months of
     issuance
                     TABLE I1
INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
         THAT FUNDS BE PUT TO BETTER USE

                                               Number   Dollar Value


 For which no management decision has been
 made by the commencement of the reporting
 period
 Which were issued during the reporting
 period
 For which a management decision was made
 during the reporting period

 (i)    dollar value of recommendations that
        were agreed to by management
        --     based on proposed
               management action
        --     based on proposed legislative
               action

 (ii)   dollar value of recommendations that
        were not agreed to by management
 For which no management decision has been
 made by the end of the reporting period
 Reports for which no management decision
 was made during six months of issuance
                      TABLE I11
SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS


                                       Federal               Mgmt
Report                                 Dollars              Decision        Status as of
Number      Name of Grantee           Questioned             Due           March 31,1996
                                   (Dollars in thousands)

         Senior Service Corps,                                         Management decision
         Inc.                                                          not received

         Senior Service Corps,
         Inc.
         Senior Service Corps,
         Inc.
         Round Rock Navajo                                                     Note 1
         Tribe
         Portland Youth Service                                                Note 1
         Corps
         Youth Volunteer Corps                                                 Note 1
         of America
         National Association of                                               Note 1
         Child Care Resource &
         Referral Agencies
         City Year of Boston                                                   Note 1

         Arkansas Division of                                          Management decision
         Volunteerism, Delta                                           not received
         Service Corps
         Public Education Fund                                                 Note 1
         Network


         Neighborhood Green                                                     Note 1
         Corps


         Association of                                                         Note 1
         Farmworkers
         Opportunities Program                                         (Continued on next page)
                       TABLE I11
 SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS
                      CONTINUED

                                                Federal              Mgmt
 Report                                         Dollars             Decision       Status as of
 Number             Name of Grantee            Questioned            Due          March 31,1996
                                           (Dollars in thousands)

95- 16         Multi County                               *         02/27/96         Note 1
               Community Action
               Against Poverty

95-27          Commonwealth of                            *         03/25/96   Management decision
               Kentucky                                                        not received


 *       Amount questioned less than $1,000.

Note 1 : At the end of the current semiannual reporting period, CNS proposed a number of management
         decisions to resolve outstanding audit findings. Under CNS's audit follow-up procedures,
         OIG's agreement with a proposed management decision concludes the audit resolution process.

         However, OIG could not agree to most of the proposed resolutions submitted in late March
         1996. OIG objected to proposed decisions that were based on unsupported assertions by the
         auditees that reported conditions had been remedied because CNS had not verified, and
         proposed no plans to verifl, that corrective actions had been put into place and were working
         effectively to correct the reported conditions.

         In April 1996, OIG and CNS began working on a plan to monitor and assess grantee corrective
         actions. The plan is to be reported by CNS' in its "Semiannual Report to Congress on Audit
         Follow-up."
                         TABLE IV
    SIGNIFICANT REPORTS DESCRIBED IN PRIOR SEMIANNUAL
              REPORTS WITHOUT FINAL ACTION

                                                Mgmt.
 Report                                Date    Decision
 Number                Title          Issued     Due          Final Action


94-HQ-54     Portland Youth Service
             Corps
95-01        National Association
             of Child Care Resource
             Referral Agencies
95-02        City Year of Boston
95-03        Arkansas Division of
             Volunteerism, Delta
             Service Corps
95-04        American Institute of             03/26/96   No target date has
             Public Service                               been established for
                                                          final resolution
                                                          actions.
95-10        Neighborhood Green                03/29/96             *
             Corps



* Management decision is overdue.
                    INDEX TO REPORTING REQUIREMENTS OF
                           THE INSPECTOR GENERAL


IG Act ~eference*                         Reporting Requirement                           Page

Section 4 (a)(2)       Review of Legislation and Regulations.

Section 5 (a)(l)       Significant problems, abuses, and deficiencies.

Section 5 (a)(2)       Recommendations with respect to significant problems, abuses,
                       and deficiencies.
Section 5 (a)(3)       Prior significant recommendations on which corrective action has
                       not been completed.
Section 5 (a)(4)       Matters referred to prosecutive authorities.
Section 5 (a)(5)       Summary of instances where information was refused.

Section 5 (a)(6)       List of audit reports by subject matter showing dollar value of
                       questioned costs and recommendations that funds be put to better
                       use.
Section 5 (a)(7)       Summary of each particularly significant report.
Section 5 (a)@)        Statistical table showing number of reports and dollar value of
                       questioned costs.
Section 5 (a)(9)       Statistical table showing number of reports and dollar value of
                       recommendations that funds be put to better us.

Section 5 (a)(10)      Summary of each audit issued before this reporting period for
                       which no management decision was made by end of reporting
                       period.
Section 5 (a)(ll)      Significant revised management decisions.

Section 5 (a)(12)      Significant management decisions with which the Inspector
                       General disagrees.



*Refers to sections in the Inspector General Act of 1978, as amended.
               CORPORATION FOR NATIONAL SERVICE


  OFFICE OF INSPECTOR GENERAL

                 HOTLINE         -




                            Concerned Citizens!

          CNS Employees!                         Grantee Employees!

ArneriCorps Members!                                   Senior Corps Volunteers!




             Report suspected fraud, waste or           abuse.
                       + All information is confidential.
                       + You may remain anonymous.


                                     Or write:

                             OIG HOTLINE
                       Corporation for National Service
                 1201 New York Avenue N.W. Suite 8100
                       Washington, D.C. 20525
